    UNITED STATES DEPARTMENT OF AGRICULTURE

            OFFICE OF INSPECTOR GENERAL




 STATEMENT OF THE HONORABLE PHYLLIS K. FONG

                INSPECTOR GENERAL



                        Before the

SENATE COMMITTEE ON AGRICULTURE, NUTRITION, AND FORESTRY



                      March 9, 2006
Good morning, Chairman Chambliss, Ranking Member Harkin, and Members of the

Committee. Thank you for inviting me to testify before you today to discuss the results

of our recent audit regarding the Grain Inspection, Packers and Stockyards

Administration’s (GIPSA) Management and Oversight of the Packers and Stockyards

Programs.


GIPSA works to ensure a productive and competitive global marketplace for USDA

products. The agency’s Packers and Stockyards Programs (P&SP) are responsible for

maintaining fair trade practices in the marketing of livestock, providing financial

protection for participants in livestock transactions, and ensuring open competitive

marketing conditions for livestock and meat. Competition investigations are complex

and often require sophisticated economic modeling and analyses. P&SP is responsible

for evaluating complaints regarding restriction of competition, failure to compete,

apportionment of territory, price manipulation, price discrimination, and predatory

pricing.


In April 2005, OIG received a letter from the Ranking Member of this Committee,

Senator Tom Harkin, expressing concerns with GIPSA’s management and oversight of

the P&SP. Of particular concern was the possible overstatement of the number of

investigations that were conducted by the agency’s competition division as reported in

GIPSA annual reports. The number of actual investigations is an indicator of the level of

GIPSA’s enforcement activity for a particular year. In response to this inquiry, we
                                                                                                         2

initiated an audit to evaluate GIPSA’s management and oversight of P&SP. 1

Specifically, our audit evaluated the adequacy of GIPSA’s actions to (1) investigate and

act against anti-competitive activities, (2) count and track complaints; (3) strengthen

program operations; and (4) allocate and use resources for conducting investigations.



To accomplish these objectives, we conducted our audit work at GIPSA Headquarters in

Washington, D.C., and each of the agency’s three P&SP regional offices from May to

October 2005. We evaluated current investigative policies and procedures and examined

pertinent documentation.          The documentation we examined included records from

P&SP’s investigative tracking system, investigative work plans and reports, weekly

activity reports, and records of employee turnover and retention. We also interviewed

over 50 current and former GIPSA employees and the Assistant General Counsel for

Trade Practices with the Office of General Counsel (OGC). We evaluated P&SP’s

processes and controls for conducting investigations to ensure complaints were

effectively examined, reported, and resolved. We did not assess the quality of the

investigations performed or the results reported.



OIG’s 1997 Review of GIPSA’s Oversight of Anti-Competitive Practices


Before discussing the findings of our January 2006 audit, I would like to briefly mention

the prior work OIG had conducted pertaining to GIPSA, which involved some of the




1
  OIG has conducted both audit and investigative oversight of GIPSA’s P&SP programs. While testimony
today will focus on recent audit work, I want to also note that we have devoted investigative resources to
pursue allegations of fraud and criminal wrongdoing related to GIPSA programs.
                                                                                          3

same issues. This was followed by a related Government Accountability Office (GAO)

report that was issued in September 2000.



In February 1997, OIG issued a report that assessed GIPSA’s efforts to monitor and

investigate anti-competitive practices. We concluded that GIPSA was not as effective as

it could have been in monitoring the livestock procurement market for anti-competitive

behavior. Based on this conclusion and the underlying findings, OIG suggested that

GIPSA consider several administrative measures to improve its monitoring of the market

for anti-competitive behavior, including (1) redistributing the location of its resources by

reorganizing the agency’s National and Regional Offices, (2) integrating its economics

staff into the investigations of anti-competitive practices, and (3) developing procedures

to consult with USDA’s OGC regarding the initiation and conduct of anti-competitive

practice investigations.



In September 2000, GAO released a report on P&SP activities that followed up on our

work and reaffirmed our conclusions. GAO provided an update on the actions GIPSA

had taken in response to our concerns.        Although GIPSA had completed a major

restructuring of its Headquarters and field offices in 1999 and had hired staff to

strengthen its investigation of alleged anti-competitive practices, GAO reported that two

principal factors continued to detract from GIPSA’s ability to investigate concerns about

anti-competitive practices in these markets. First, GIPSA’s investigations were led and

conducted primarily by economists without the formal involvement of attorneys from

OGC.     Second, GIPSA’s investigative processes and practices were designed for
                                                                                         4

traditional trade practice and financial issues that the agency had emphasized for years,

and thus were not suited for the more complex anti-competitive practices they needed to

address.



Major Findings of OIG’s January 2006 Audit of GIPSA’s Oversight of P&SP


1. P&SP’s Investigative Tracking System


In our January 2006 report, we first found that P&SP’s tracking system counted all P&SP

activities as “investigations” because there was no policy to better define its activities.

The activities that P&SP’s tracking system counted as investigations included monitoring

publicly available data, sending routine letters to request company-specific information,

and performing onsite reviews of companies. OIG found that records in the tracking

system were not complete because there were no procedures for validating the accuracy

and completeness of information recorded. Consequently, data fields were left blank and

the system could not be relied upon as a control for managing P&SP investigations.



According to P&SP data, the agency was tracking a total of 1,842 investigations as of

June 30, 2005. The records, however, could not be used to identify the location of work

performed (i.e., the P&SP office or the regulated entity’s place of business) for 1,799 of

the 1,842 investigations. In addition, we found that agency records were incomplete for

973 of the 1,842 investigations mainly because P&SP staff did not record such

information as the primary reasons for conducting the investigation, the status of

investigative work, and the disposition of closed cases.
                                                                                          5




We also found that the three P&SP regional offices were not consistently documenting

investigative work in the investigative tracking system. Two of the three regional offices

classified all activities (i.e., monitoring activities, sending routine correspondence, or

performing onsite reviews) as investigations. The Eastern Regional Office was

reprimanded on June 14, 2005, for classifying investigations to only include monitoring

activities and onsite reviews. The former Deputy Administrator directed each Eastern

Regional Office Unit (e.g., competition, trade practice, and financial protection) to devise

a strategic plan to address the deficiency in the number of investigations recorded in the

investigative tracking system. According to the strategic plans, the units committed to

increasing the number of complaints and investigations in the log by adding activities that

were previously not included as investigations. These activities included delinquent

annual and special reports, bond terminations, bond increases, and registration and

bonding. We found this resulted in a significant increase in the number of investigations

recorded in the complaints and investigations log. On June 14, 2005, the region was

tracking a total of 425 investigations. By comparison, as of September 15, 2005, a total of

760 activities were being tracked by the region. The region climbed from last to first

among the three regions by reclassifying over 300 routine activities as investigations.



We recommended that GIPSA implement a policy defining investigations and procedures

for recording data in the investigative tracking system. In response, GIPSA issued a

policy statement in January 2006, which defined investigations and differentiated

between activities to perform onsite reviews from monitoring publicly available data and
                                                                                        6

requesting company information.      GIPSA also agreed to implement procedures by

June 2006 for recording data to be tracked and for validating the accuracy and

completeness of this data.



2. Management Control over Competition and Complex Investigations


We found that P&SP had established a Senior Management Review Panel (SMRP) to

plan and conduct competition and complex investigations. The SMRP was initiated in

response to a recommendation from GAO in September 2000. P&SP had agreed to

develop a review process for investigations in which complex investigations of anti-

competitive activities are subject to review and approval by P&SP Headquarters and

OGC. At the time of our review, the panel was comprised of the Deputy Administrator

and the Division Directors for Policy and Litigation, Industry Analysis, and Regional

Operations. We found that during the period of our audit, the functioning of the SMRP

inhibited the agency’s ability to investigate anti-competitive activities and unfair trade

practices in the livestock and poultry markets. SMRP did not establish an effective

process for identifying the work to be performed, approving work plans, performing

fieldwork and analysis, and reporting on results. Consequently, no competition and

complex investigations were being completed. As of August 29, 2005, all competition

and complex investigations, a total of 50, were engaged in the process of being approved

by SMRP. Of these 50 investigations, 3 were opened in 2003, and 1 was opened over 3

years ago, in July 2002.
                                                                                         7

Since P&SP was not performing and completing competition and complex investigations,

no referrals were being made to OGC for formal administrative action. In February 2005,

P&SP referred one competition investigation to OGC. The most recent referral prior to

February 2005 was in November 2002, over 2 years earlier. OGC had not filed any

administrative complaints against market participants for anti-competitive practices since

1999 due to the lack of referrals by P&SP.



We recommended that GIPSA implement a well-defined investigative process and a

system to effectively communicate management’s expectations to staff regarding P&SP’s

investigative process and specific investigations. GIPSA agreed to implement these

recommendations by March 2006. We also recommended that GIPSA implement an

organizational structure that appropriately divides responsibility.     In January 2006,

GIPSA issued a policy statement which described its revised organizational structure to

divide responsibility between the Regional Managers and the Deputy Administrator for

approving work plans, managing investigations, and reporting results.         This should

improve GIPSA’s ability to complete its investigations.



3. Policy Decisions


We found that due to the flawed control structure that was in place during the period of

our review, P&SP was not making policy decisions or evaluating the need for changes in

regulations. A new policy group had been created in June 2005; however, P&SP did not

establish an internal structure for this group to use to receive, review, and act on policy

questions raised by P&SP staff. As a result, timely action was not being taken on issues
                                                                                        8

that impact the day-to-day business activities of producers and the entities P&SP

regulates (e.g., packers, stockyards, and live poultry dealers). We identified 64 policy

issues that were awaiting decisions in P&SP Headquarters as of September 30, 2005.

These issues covered all types of P&SP investigations (e.g., trade practice, financial

protection, and competition) and a variety of topics to be addressed by the Deputy

Administrator and the Policy and Litigation Division, such as how to make entries in the

system used to track investigations. For 55 of the 64 issues, guidance was requested prior

to 2004, with 2 submitted in 2000.



We recommended that GIPSA implement a structure for receiving, reviewing, and acting

on policy issues and a process for evaluating the need for regulatory reforms. GIPSA

agreed to implement these actions by March 2006.



4. GIPSA’s Implementation of Prior OIG and GAO Recommendations


In prior reports, OIG and GAO advised GIPSA on steps P&SP could take to better

allocate its resources to monitor the market for anti-competitive behavior. In response,

P&SP did take action to reorganize its operations in 1998 and charged the three regional

offices with maintaining a high level of expertise in one or more species of livestock.

P&SP also assessed its staff’s qualifications and hired staff with legal, economic, and

statistical backgrounds to strengthen its program operations.      In our recent report,

however, we found that the agency’s actions pertaining to four areas of suggested

improvements did not achieve sufficient results.       Specifically, P&SP did not (1)

effectively integrate economists into investigations, (2) empower the agency’s legal
                                                                                      9

specialist to consult with OGC, (3) hire a manager with experience in leading P&SP

investigations, and (4) develop a teamwork approach for investigations with P&SP’s

economists and OGC’s attorneys.



We recommended that GIPSA implement procedures that empower its legal specialists to

consult with OGC. In response, GIPSA issued a policy statement in January 2006. We

also recommended that the agency implement a process for effectively implementing

changes in P&SP operations and establish an internal review function, which GIPSA

agreed to do by September 2006.



Conclusion


In summary, we concluded that GIPSA had not established an adequate control structure

and environment that allowed the agency to oversee and manage its investigative

activities for P&SP.    Our review identified material weaknesses in three areas:

(1) defining and tracking investigations, (2) planning and conducting competition and

complex investigations, and (3) making agency policy. We also found that GIPSA had

not taken sufficient actions to strengthen operations in response to findings previously

reported by GAO and OIG.



The new leadership at GIPSA has committed to take significant corrective actions to

address the issues identified in our report.   In January 2006, GIPSA issued policy

statements which completed the necessary corrective actions for three of our

recommendations. These statements addressed such issues as the agency’s definition of
                                                                                         10

its investigative activities and a revised organizational structure to divide responsibility

between the National and Regional Offices for managing the work. GIPSA is working to

complete actions on the remaining seven recommendations no later than September 2006.

I appreciate the cooperation we received from GIPSA staff throughout the audit and the

open manner in which the new Administrator worked with us to address the results of the

audit.



This concludes my testimony. Thank you again for inviting me to testify before the

Committee and I would be pleased to address any questions you may have.
